      REMARKS OF HAROLD W. GEISEL

       INSPECTOR GENERAL (ACTING)


U.S. DEPARTMENT OF STATE AND BROADCASTING

          BOARD OF GOVERNORS

              BEFORE THE

          UNITED STATES SENATE

       COMMITTEE ON THE JUDICIARY

                    ON

CONTROLS AND NOTIFICATION FOR ACCESS TO
 PASSPORT RECORDS IN THE DEPARTMENT OF
STATE’S PASSPORT INFORMATION ELECTRONIC
            RECORDS SYSTEM


               JULY 10, 2008
     Chairman Leahy, Ranking Member Specter, members
of the Committee, thank you for inviting me to discuss with
you the privacy concerns reported in the results of our
review of controls over access to passport records in the
Department of State’s Passport Information Electronic
Records System or PIERS system. The full report has been
provided to the Committee.


     In March 2008, media reports surfaced that the
passport files maintained by the Department of State
(Department) of three U.S. Senators, who were also
presidential candidates, had been improperly accessed by
Department employees and contract staff. On March 21,
2008, the Office of Inspector General, Office of Audits,
initiated a limited review of Bureau of Consular Affairs
controls over access to passport records, and issued the
final report one week ago, on July 2, 2008. The OIG made
22 recommendations to address the control weaknesses and
the Department concurred with 19 of them, partially agreed
with one and did not agree with two recommendations.
     OIG found many control weaknesses—including a
general lack of policies, procedures, guidance, and
training—relating to the prevention and detection of
unauthorized access to passport and applicant information
and the subsequent response and disciplinary processes
when a potential unauthorized access is substantiated.


     As of April 2008, PIERS contained records on about
192 million passports for about 127 million passport holders.
These records include personally identifiable information or
P-I-I , as it is known, such as the applicant’s name, gender,
social security number, date and place of birth, and passport
number. PIERS also contains additional information, such
as previous names used by the applicant, citizenship status
of the applicant’s parents or spouse, and scanned images of
passport photos. PIERS offers users the ability to query
information pertaining to passports and vital records, as well
as to view and print original copies of the associated
documents. As a result, PIERS records are protected from
release by the Privacy Act of 1974. Unauthorized access to
PIERS records may also constitute a violation of the
Computer Fraud and Abuse Act (18 U.S.C. § 1030).
     At the time of the publicized breaches, neither Consular
Affairs nor the Department had implemented breach
notification policies, procedures, or other criteria for reporting
incidents of unauthorized access of passport records when
they were detected. However, between March and May
2008, Consular Affairs and the Bureau of Administration took
a number of corrective actions, including issuing interim
guidance on the various steps to be followed and decisions
to be made in response to a potential incident of
unauthorized access to passport records and applicant
personally identifiable information, and a Department-wide
P-I-I breach response policy.


     While these immediate actions taken are
commendable, OIG has recommended that the Department
conduct the necessary vulnerability and risk assessments of
all passport systems given the weaknesses and data
vulnerabilities identified in this limited review of PIERS.
Accordingly, OIG believes that the Department should make
resources available to conduct the assessments as quickly
as possible.
     OIG also recommended that CA ensure the accuracy of
its Privacy Impact Assessments for PIERS and for all other
passport systems to accurately reflect security controls for
and risks to personally identifiable information.


     I would like to introduce Mr. Mark W. Duda, Assistant
Inspector General for Audits, who led this review and will
provide a summary of the findings.


     Thank you for the opportunity to present this timely
information to you today. Following Mr. Duda’s remarks, we
would be happy to answer any questions you may have.
